i

20°§5 52

No.

■

filed
APR 2 2 2020

IN THE SUPREME COURT OF THE UNITED STATES

Jeremy Kerr - PETITIONER
vs
State of Ohio - RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF THE UNITED STATES

"5r
'■

______

____ . -V-_______ ___________

_________________________

PETITION FOR WRIT OF CERTIORARI
Jeremy Kerr 686-150
North Central Correctional
PO Box 1812
Marion, OH 43301

-1 -

SUPREEMEFCnl^iTLnllKJ

QUESTIONS PRESENTED FOR REVIEW
Does a state court violate the 14th Amendment to the United
States Constitution when it issues a Default Judgment against
a non-legal entity?
Does a state court violate the 14th Amendment to the United
States Constitution when it amends an individual after
default judgment against a non-legal entity?
Does a state court violate the 14th Amendment to the United
States Constitution when it dismisses a currect action because
a prior action was dismissed without any specification of
whether the dismissal was with or without prejudice?

-Z-

TABLE OF CONTENTS
Cover Page

page 1

Questions Presented for Review

page 2

Table of Contents

page 3

Index of Appendicies

page 3

Table of Authorities

page 4

List of All Parties .

page 5

List of All Proceedings

page 6

Statement of the Basis of Jurisdiction

page 7

Constitutional and Statutory Provisions Involved 7page '7
Statement of the Case

page 8

Request for Granting Writ

page 13

INDEX OF APPENDICES
Appendix A

Decision of the Ohio Supreme Court

Appendix B

Affidavit of the Ohio Secretary of State

Appendix C

Judgment Entry of the Ohio Court of Appeals

appendeix D

Dissmissal under Ohio Civil Rule 12(B)(6)

-3-

TABLE OF AUTHORITIES

CASES:
FDIC v Weise Apartments, 192 FRD 100
Kraly v Vennewkirk, 69 Ohio St 3d 627
Paganis v Blonstein, 3 F. 3d 1072

10
10, 11
10

Peterson v Teosodio, 34 Ohio St 2d 261

10, 12

Peterson v V&M Autobody, 63 Ohio St 3d 573

10, 11

Semtek Int'l v Lockheed Martin Corp., 531 US 497

12

CONSTITUTIONAL AUTHORITIES:
14th Amendment to the United States Constitution

7, 10, 12

RULES:
Ohio Civil Rule 15

8, 10, 11

United States Supreme Court Rule 10

7, 13

STATUTES:
28 U.S.C. 1257

7

Ohio Revised Code 1329.02(A)

11

Ohio Revised Code 1329.10(C)

*11

<3

-4-

LIST OF ALL PARTIES /
All parties do not appear in the caption of the case on the
cover page.

A list of all parties to the proceeding in the court

whose judgments are the subject of this petition are as follows:
Governor M ike DeWine
Vern Riffe Center
77 S. Hight St., 30th Floor
Columbus, OH 43215
Attorney General Dave Yost
James A. Rhodes State Office Tower
30 E. Broad St., 14th Floor
Columbus, OH 43215
Sixth Appellate District
Court of Appeals Building
1 Constitution Ave
Toledo, OH 43604-6104
Judge Reeve Kelsey
One Courthouse Square
Bowling Green, OH 43402
Supreme Court of Ohio
65 South Front St
Columbus, OH 43215

-5-

LIST OF ALL PROCEEDINGS
In the Common Pleas Court of Wood County, Ohio
Case No. 2011-CV-0853
Keith Lenz -vs- Kerr Building, Inc.
Date of Judgment,
Case No. 2013-CV-0643
Keith Lenz -vs- Kerr Building, Inc.
Date of Judgment,
In the Ohio Court of Appeals, Sixth Appellate District
Case No. 2019-WD-047
State ex rel Jeremy Kerr -vs- Judge Reeve Kesley
Date of Judgment, August 8, 2019
In the Supreme Court of Ohio
Case No. 2019-1196
State ex rel Jeremy Kerr -vs- Judge Reeve Kelsey
Date of Judgment, March 25, 2020

f

-6-

STATEMENT OF THE BASIS OF JURISDICTION
Petitioner respectfully prays that a writ of certiorari
issue to review the merits of the following Opinions of the
Ohio Supreme Court, which appears at Appendix A to this
Petition for Writ of Certiorari:
State ex rel Jeremy Kerr -vs- Judge Reeve Kelsey
Decided on March 25, 2020
Ohio Supreme Court case no. 2019-1196
2020-OhioPetitioner invokes this Court's jurisdiction under
28 U.S.C. 1257(a).

Further, Supreme Court Rule 10(c) provides

that review on a writ of certiorari will be granted only for
compellng reasons, sue as, when a state court has decided an
important federal question in a way that conflicts with relevant
decisions of this Court.

The facts of the case satisfies

Supreme Court Rule 10(c).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution Amendment Fourteen
All persons born or naruralized in the United States, and subject
to the jurisdiction thereof, are citizens of the United States
and of the State wherein they reside, No State shall make or
enforce any law which shall abridge the privileges or immunities
of citizens of the United States; nor shall any State deprive a
person of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the law.

-7-

STATEMENT OF THE EASE
Initial Trial(p>urt Proceedings
In 2011, Keith Lenz ("Lenz") sued Kerr Building, Inc.
regarding a contract dispute in the Common Pleas Court of Wood
County, Ohio [case no. 2011-CV-0853] with Judge Reeve Kelsey
("Judge Kelsey") presiding.
[Kerr Building, Inc. is not a fegal entity,

Appendix B is

a copy of an Affidavit from the Ohio Secretary of State indicating
that his office has "NO RECORD" of any Ohio corporation, trade
name, or ficticious name known as "KERR BUILDING, INC."]
After Kerr Building, Inc. failed to answer Lenz's complaint,
Judge Kelsey entered a default judgment in Lenz's favor, against
non-legal entity Kerr Building, Inc.
Lenz then filed a "Motion to Pierce the Corporate Veil to
Seek Damages Against Jeremy Kerr Individually".

Judge Kelsey

denied the motion, stating that Jeremy Kerr ("Kerr") must be
amended as a defendant and properly served with the complaint.
Judge Kelsey then granted Lenz leave to amendfj'Kerr under Ohio
Civil Rule 1 5.
Lenz filed an Amended Complaint under Ohio Civil Rule 15,
which added Kerr as a defendant, and added a new claim; "Officer1s
Liability for Corporate Action".
Kerr filed a Motion to Dismiss the Amended Complaint arguing
that Judge Kesley lacked authority, following the entry of default
judgment against Kerr Building, Inc., to amend Kerr under Ohio
03
Civil Rule 15. Judge Kesley denied the motion.
Prior to the filing of the Amended Complaint, Lenz never

moved Judge Kelsey to vacate the Default Judgment against Kerr
Building, Inc., nor did Judge Kelsey enter an order vacating the
Default Judgment.
Second Lawsuit
In 2013, Lenz filed a second lawsuit [case no. 2013-CV-0643]
alleging that Kerr had fraudulently transfered real property to
Beaver Creek Development Co, LLC., a company that Kerr had a
membership interest.
Kerr filed a Motion to Dismiss aruing that Judge Kelsey
lacked subject matter jurisdiction of the case because (1) the
judgment in the prior case is null and void due to the fact that
"Kerr Building, Inc." is a non-legal entity; and, (2) Kerr was
illegally amended to the prior lawsuit.
Judge Kelsey denied the motion by finding that
"Kerr Building, Inc." is a legal entity, and that he had authority
to amend Kerr after default judgment.
Kerr did not appeal the judgment because Ohio Appellate Courts
only have subject matter jurisdiction to hear errors of valid
j udgments.

Under Ohio Law, the vacation of a void judgment may be

sought by a motion to vacate, a writ of mandamus, or a writ of
prohibition.
Writ of Mandamus
On June 24, 2019, Kerr filed a Complaint for Writ of Mandamus
against Judge Kelsey in the Sixth Appellate District [case no. 2019
J

-WD-047] in which Kerr claimed that the-judgments Judge-Kelsey
rendered against Kerr violated his right to due process of law

-9-

guaranteed by the 14th Amendment to the United States Constitution.
In the proceeding, Kerr first established that the Default
Judgment against non-legal entity "Kerr Building, Inc." is null
and void.

Patterson v V&M Autobody, 63 Ohio St 3d 573. Accordingly,

Judge Kelsey lacked subject matter jurisdiction because no action
had been commenced under Ohio Civil Rule 3.

Patterson, supra.

Kerr then established that the Ohio Supreme Court mandated in
Kraly v Vennewkirk, 69 Ohio St 3d 627 that a trial court lacks
authority under Ohio Civil Rule 15 to amend a party (1) in the
absence of a showing that the original complaint contained a
misnomer or mistake, [Lenz never satisfied this requirement];
(2) to add |anew claim, [the Amended Complaint adds a new claim];
and, (3) while retaining the original defendant, [Kerr Building,
Inc. was retained as a defendant in the Amended Complaint].
Kerr further established that it is a long standing legal
concept that

complaint may not be amended under Rule 15 after

default judgment because once judgment has been entered, the
complaint merges into the judgment and, therefore, Judge Kelsey
lacked subject matter jurisdiction to review the complaint.

FDIC

v Weise Apartments, 192 FRD 100; Paganis v Blonstein, 3 F.3d 1072jfl
In addition, the Ohio Supreme Court had mandated that the
attempt to amend a party after the mere filing for default judgment
"raises the spectre of prejudice".
St 2d 161

Peterson v Teosodio. 34 Ohio

[Ohio Civil Rule 15 requires the motion to be filed in

a timely manner].
o

Kerr concluded that the void judgments rendered against Kerr
violate his right to due process of law guaranteed by the 14th

-10-

Amendment to the United States Constitution.
On August 6, 2019, the Appellate Court sua sponte dismissed
Kerr's Complaint for failing to state a claim,

It reasoned that

the Ohio Secretary of State's Affidavit only states that *
"Kerr Building, Inc." is not a registered "Ficticious Name" or
"Trade Name", and because O.R.C. 1329.10(C) authorizes actions
against non-registered "Ficticious Names" and "Trade Names",
Judge Kelsey had subject matter jurisdiction of the case.
The Appellate Court ignored Kerr's Rule 15 claim, as well as,
O.R.C. 1329.02(A) which prohibits the abbreviation "Inc." in the
names of a "Ficticious Name" or "Trade Name".
Direct Appeal
On August 28, 2019, Kerr filed a Direct Appeal to the Ohio
Supreme Court [case no. 2019-1196].
In the proceeding, Kerr initially argues that the name
"Kerr Building, Inc." can never be mistaken for a "Ficticious Name"
or "Trade Name" because O.R.C. 1329.02(A) prohibits the the use of
the abbreviation "Inc." in the name of a "Ficticious Name" or
"Trade Name".
Kerr then re-stated his argument that the default judgment
against non-legal entity "Kerr Building, Inc." is null and void.
Patterson v V&M Autobody, 63 Ohio St 3d 573,

Accordingly, Judge

Kelsey lacked subject matter jurisdiction because no action had
commenced under Ohio Civil Rule 3.

Patterson, supra.

Kerr then re-established that Kraly v Vennewkirk, 69 Ohio
St 3d 627

prohibits the amending of a party (1) in the absence of

a showing of a misnomer or mistake [Lenz never satisfied this
requirement]; (2) to add a new claim [theaAmended Complaint adds

-11--

a new claim]; and, (3) while retaining the original party [the
Amended Complaint retains "Kerr Building, Inc." as a defendant].
Kerr also reminded the Ohio Supreme Court that had previously
mandated that the attempt to amend a party after the filing for a
default judgment "raises the spectre of prejudice".

Peterson v

Teosodio, 34 Ohio St 2d 161.
Kerr then concluded, that the void judgments rendered against
him violate his right to due process of law guaranteed by the 14th
Amendment to the United States Constitution.
On March 25, 2020, the Ohio Supreme Court affirmed the
Judgment of the Sixth Appellate District by applying Ohio Civil
Rule 41(B)(3).

The Ohio Supreme Court explained that because it

did not specify whether it's dismissal in Kerr's prior

case [the

writ of mandamus filed in case no 2018-0100]-was with or without
prejudice, the prior dismissal operates as adjudication of the - • -merits, thus Kerr's current claim is barred by res judicata.
[See Appendix A ({arid Appendix D]
The application of Ohio Civil Rule 41(B)(3) directly conflicts
with this Court's Decision in Semtek Int'l v Lockheed Martin Corn.
531 US 497 which prohibits the use of Rule 41 when the merits of
the prior case were not adjudicated.

-1 2-

REQUEST FOR GRANTING THE WRIT
Supreme Court Rule 10 prescribes that a petition for writ
of certiorari will not be granted only for compelling reasons,
such as, when a state court has decided an important question
of federal law that has not been, but should be, settled by this
Court, or has decided an important federal question in a way that
conflicts with relevant decisions of this Court.
The facts of this case, and the documents attached in the
Appendix, on it's face, demonstrates a clear violation of Kerr's
right to due process of law, and when presented this question
of federal law, each level of the Ohio Courts settled the issue
in a way that conflicts with this Court's decisions.
WHEREFORE, Petitioner requests this Court to grant his
Petition for Writ of Certiorari.
Respectfully submitted,

Jeremy Kerb*' 686-150
North Central Correctional
PO Box 1812
Marion, OH 43301

-1.3-

